Supreme Court, U.S
FILED

JAN 1 1 2021
office of the clerk

NO.

IN THE
Supreme Court of the United States

RICKY HAYWOOD-WATSON,
Petitioner,
v.

THE STATE OF TEXAS,
Respondent.

On Petition for a Writ of Certiorari
To the Texas Court of Criminal Appeals

PETITION FOR A WRIT OF CERTIORARI

RICKY HAYWOOD-WATSON
PETITIONER
TDCJ No. 02206869
Barry S. Telford Unit
3899 State Hwy 98
New Boston, TX 75570
Main Phone: (903) 682-3171

IGINAL

A

QUESTION PRESENTED

In Section 21.02(d) of the Texas Penal Code, it states that a jury does not
need to unanimously agree on which two or more acts of sexual abuse were
committed in the continuous series. The two or more acts used to form the basis of
the series are free-standing criminal violations, under Texas law, that
independently require jury unanimity.
This case presents the following question: In light of Ramos v. Louisiana,
does Section 21.02(d) of the Texas Penal Code violate the constitutional
guarantee of jury unanimity by not requiring a jury to unanimously agree
on the two or more “acts” that constitute the series?

1

PARTIES TO THE PROCEEDING

The petitioner is Ricky Haywood-Watson, the defendant and appellant in the
courts below. The respondent is the State of Texas, the plaintiff and appellee in the
courts below.
The State of Texas v. Ricky Hay wood-Watson, No. 1494189, 339th District
Court of Harris County, Texas. Judgment entered June 25, 2018.
Ricky Haywood-Watson v. The State of Texas, No. 14-18-00547-CR, Texas
Fourteenth Court of Appeals. Judgment entered February 11, 2020.
Judgment denying rehearing entered March 17, 2020.
Ricky Haywood-Watson v. The State of Texas, No. PD-0370-20, Texas Court of
Criminal Appeals. Judgment refusing petition for discretionary review
entered June 17, 2020. Judgment granting motion for leave to file amended
petition for discretionary review granted July 14, 2020. Judgment denying
motion for rehearing entered August 19, 2020.

RULE 29.6 STATEMENT
Ricky Haywood-Watson, Petitioner, is not a corporate entity.

li

TABLE OF CONTENTS

QUESTION PRESENTED

i

PARTIES TO THE PROCEEDING

ii

RULE 29.6 STATEMENT

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

vi

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTIONAL STATEMENT

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

SUMMARY OF THE ARGUMENT

6

REASONS FOR GRANTING THE WRIT

7

I. This Court Should Grant Certiorari to Consider Whether Section
21.02(d) of the Texas Penal Code Violates This Courts Precedent
Regarding Jury Unanimity....................................................................................... 7
A.
History Unequivocally States Unanimity is an Indispensable Precept of
Trial by Jury.
10
m

B.
Schad v. Arizona, Richardson v. United States and Apprendi v. New
Jersey Provide the Framework for Determining True Elements and Jury
Agreement Necessary in Continuous Series Statues........................................
1.

13

Legislative Authority has Constitutional Limits............................

14

2. In Apprendi v. New Jersey This Court Rejected the Concept That
Changing Placement of a Criminal Violation Defines Its Character....

16

3. The Breadth of Texas’ Continuous Sexual Abuse Statute is Why It is
Analogous to the Federal Continuous Criminal Enterprise Statute...........

20

4. Sixth Amendment Guarantee of Jury Unanimity Has Been Extended to
State Criminal Trials Via Ramos v. Louisiana.
21
CONCLUSION

23

CERTIFICATE OF SERVICE

24

APPENDICES
APPENDIX A: Texas Fourteenth Court of Appeals opinion in Ricky HaywoodWatson v. The State of Texas, 14-18-00547-CR, Tex. R. App. P. 47.2(b) (TX. 14th
COA, 02/11/20)
APPENDIX B: Texas Fourteenth Court of Appeals letter denying rehearing in Ricky
Haywood-Watson v. The State of Texas, 14-18-00547-CR (TX. 14th COA, 03/17/20).
APPENDIX C: Texas Court of Criminal Appeals letter refusing Petition for
Discretionary Review in Ricky Haywood-Watson u. The State of Texas, PD-0370-20
(TX. CCA 06/17/20)
APPENDIX D: Motion for Leave to File Amended Motion for Rehearing in Ricky
Haywood-Watson v. The State ofTeocas, PD-0370-20 (filed in TX. CCA 07/13/20)
APPENDIX E: Amended Motion for Rehearing in Ricky Haywood-Watson v. The
State of Texas, PD-0370-20 (filed in TX. CCA 07/13/20)

IV

APPENDIX F: Texas Court of Criminal Appeals letter granting motion for leave to
file amended Petition for Discretionary Review in Ricky Haywood-Watson v. The
State of Texas, PD-0370-20 (TX. CCA 07/14/20)
APPENDIX G: Texas Court of Criminal Appeals letter denying motion for rehearing
in Ricky Haywood-Watson v. The State of Texas, PD-0370-20 (TX. CCA 08/19/20)
APPENDIX H: Texas Penal Code § 21.01 and §21.02

v

TABLE OF AUTHORITIES
Cases

Apodaca v. Oregon, 406 U.S. 404 (1972)

8

Apprendi v. New Jersey, 530 U.S. 466 (2000)
Coker v. State, No. 12-09-00331-CR (Tex. App. Dec. 8, 2010)
Dixon v. State, 201 S.W.3d 731 (2006)

9, 19, 22
16, 22
15

Flores v. State, 245 S.W. 3d 432 (Tex. Crim. App. 2008)

4

Henry v. State, No. 08-11-0221-CR (Tex. App. Jan. 16, 2013)

18

In re Winship, 397 U.S. 358 (1970),

11

Jacobsen v. State, 325 S.W.3d 733 (2010)

15, 17, 20, 21

Johnson v. Louisiana, 406 U.S. 356 (1972)
Karanev v. State, 281 S.W. 3d 428 (Tex. Crim. App. 2009)

11
4

Khan v. State, 278 P.3d 893 (2012)

12

Landrain v. State, 268 S.W.3d 532 (Tex. Crim. App. 2008)

15

Ramos v. Louisiana, 590 U.S.

10

(2020)

Render v. State, No. 05-09-00528-CR (2010)
Richardson v. United States, 526 U.S. 813 (1999)
United States v. Gipson 553 F.2d 452 (1977)

vi

17
9, 10, 18, 21
12

Statutes

28 U.S.C. § 1257(a)

2

Tex. Pen. Code § 21.02(b)(1)

2

Tex. Pen. Code § 21.02(d)

3, 13

U.S. Const. Amend. VI

2

U.S. Const. Amend. XIV

2

Other Authorities

Brian Bah, Jury Unanimity and the Problem with Specificity: Trying to Understand
What Jurors Must Agree about by Examining the Problem of Prosecuting Child
Molesters, Tex. L. Rev., Vol. 91 No. 5 (2013)
Jessica A. Roth, Alternative Elements, UCLA Law Review, Vol 59 (2011).

20

12

Joseph Story, Commentaries on the Constitution of the United States, 559 n.2 (1891)
13
William Blackstone, Commentaries on the Laws of England (1769)

Vll

11

PETITION FOR A WRIT OF CERTIORARI
Petitioner Ricky Haywood-Watson respectfully petitions this Court for a writ
of certiorari to review the judgment of the Texas Court of Criminal Appeals.
OPINIONS BELOW
The judgment of the Texas Fourteenth Court of Appeals is an unpublished
opinion reported at Ricky Haywood-Watson v. The State of Texas, 14-18-00547-CR,
Tex. R. App. P. 47.2(b) (TX. 14th COA, 02/11/20), attached as Appendix “A”. The
Texas Fourteenth Court of Appeals’ judgment denying the motion for rehearing is
attached as Appendix “B”, (TX. 14th COA, 03/17/20). The Texas Court of Criminal
Appeals’ judgment refusing the petition for discretionary review in Ricky HaywoodWatson v. The State of Texas, PD-0370-20 (TX. CCA 06/17/20) is attached as
Appendix “C”. The Texas Court of Criminal Appeals’ judgment granting the motion
for leave to file amended motion for rehearing is attached as Appendix “F”, (TX.
CCA 07/14/20). The Texas Court of Criminal Appeals’ judgment denying the
amended motion for rehearing is attached as Appendix “G”, (TX. CCA 08/19/20).
JURISDICTIONAL STATEMENT
On August 19, 2020 the Texas Court of Criminal Appeals denied the
amended motion for rehearing. See Appendix “G”. On March 20, 2020, this Court
extended the time for filing all certiorari petitions due on or after March 19, 2020 to
1

150 days from the date of, as relevant here, the order denying the amended motion
for rehearing. This petition is filed within 150 days of August 19, 2020. This Court’s
jurisdiction is pursuant to 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United States Constitution provides, in
pertinent part: “In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury...” U.S. Const. Amend. VI.
The Fourteenth Amendment to the United States Constitution provides, in
pertinent part:
All persons born or naturalized in the United States, and subject to the
jurisdiction therefore, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
U.S. Const. Amend. XIV.
Section 21.02(b)(1) of the Texas Penal Code states: “A person commits an
offense if during a period that is 30 or more days in duration, the person commits
two or more acts of sexual abuse, regardless of whether the acts of sexual abuse are
committed against one or more victims.” Tex. Pen. Code § 21.02(b)(1).
Section 21.02(d) of the Texas Penal Code states:
If a jury is the trier of fact, members of the jury are not required to agree
unanimously on which specific acts of sexual abuse were committed by
the defendant or the exact date when those acts were committed. The
2

jury must agree unanimously that the defendant, during a period that
is 30 or more days in duration, committed two or more acts of sexual
abuse.
Tex. Pen. Code § 21.02(d).
STATEMENT OF THE CASE
The petitioner, Ricky Haywood-Watson, was charged with continuous sexual
abuse of young child or children. He pled “not guilty” and elected to be tried by a
twelve-member jury. On June 18, 2018 Mr. Haywood-Watson went on trial. After
deliberating, the jury found Mr. Haywood-Watson guilty in accordance with the
statute and jury charge presented. Under Section 21.02(d) of the Texas Penal Code
the jury is not required to unanimously agree on the two or more “acts” used to
determine guilt. Mr. Haywood-Watson was sentenced to 65 years in prison without
the possibility of parole, a life sentence given his age.
Mr. Haywood-Watson appealed his case to the Texas Fourteenth Court of
Appeals, followed by the Texas Court of Criminal Appeals. His appeal initially
presented a different question than the question presented here since nonunanimous jury verdicts were permissible in state criminal trials at the time of his
trial. The Texas Fourteenth Court of Appeals and the Texas Court of Criminal
Appeals denied the previous argument without explanation. While Mr. HaywoodWatson’s case was still on direct appeal this Court issued the Ramos v. Louisiana
opinion recognizing that the term “trial by an impartial jury” requires jury
unanimity and applies to federal as well as state criminal trials.
3

Mr. Haywood-Watson acknowledges that Texas case law dictates
constitutional challenges must be preserved for appeal by initial challenge at trial.
Karanev v. State, 281 S.W. 3d 428 (Tex. Crim. App. 2009) and Flores v. State, 245
S.W. 3d 432 (Tex. Crim. App. 2008). However, Mr. Haywood-Watson argues that the
constitutional ruling, conferring newly guaranteed rights, underlying the current
challenge occurred during direct appeal, thus preserving his right to challenge.
Griffith v. Kentucky, 479 U.S. 314 (1987). Jurisprudence dictates that this issue be
addressed by appellate courts, even when the issue is raised for the first time on
direct appeal. When a statue giving rise to prosecution is unconstitutional it is void
from its inception, is no law, grants power to no one, and justifies no act performed
under it. Denying constitutional challenges on direct appeal in light of newly
guaranteed rights risks allowing criminal convictions based upon unconstitutional
statutes.
Therefore, after this Court’s Ramos v. Louisiana ruling, Mr. HaywoodWatson immediately submitted his Motion for Leave to File Amended Motion for
Rehearing and Amended Motion for Rehearing to the Texas Court of Criminal
Appeals. App. “D” and “E.” Mr. Haywood-Watson argued that in light of Ramos,
Section 21.02(d) of the Texas Penal Code violates his federal constitutional rights by
not requiring the jury to unanimously agree on the two or more “acts” used to
determine guilt. Upon receipt the Texas Court of Criminal Appeals granted the
Motion for Leave to File Amended Motion for Rehearing and filed the Amended
4

Motion for Rehearing. App. “F” and “E”. The Texas Court of Criminal Appeals
considered the merits of Mr. Haywood-Watson’s Amended Motion for Rehearing and
issued a denial without reasons. App “G”. By denying Mr. Haywood-Watson’s
Amended Motion for Rehearing the Texas Court of Criminal Appeals affirmed
Texas Intermediate Court rulings and decided an important question of federal law
that has not been directly addressed by this Court. The question presented in this
case is significant, recurs frequently, applies nationally and is perfectly preserved
on this record.
The State’s case against Mr. Haywood-Watson was crafted amidst a bitter
divorce between him and his wife, now Ms. Shaw, resulting from his extramarital
affairs with adult women. According to testimony presented at trial, Mr. HaywoodWatson allegedly sexually abused all four of his children, two boys and two girls
ages two years to eight years old, to varying degrees. This abuse allegedly occurred
over the course of two years while Mr. Haywood-Watson was working upwards of
one hundred hours per week as a surgical resident and having multiple affairs with
adult women. Ms. Shaw’s behavior was dubious from the outset. In January 2015,
Ms. Shaw filed a no contest divorce petition allowing for visitation while only citing
that Mr. Haywood-Watson’s demanding work schedule should limit his visitation.
In August 2015, Ms. Shaw electronically submitted accusations of sexual abuse of
their four children to Child Protective Services reporting the outcry was one year
earlier, in July 2014. Ms. Shaw’s online report was made ten days before civil
5

proceedings were to begin and on the day she received a report, from a private
investigator she hired, detailing Mr. Haywood-Watson’s involvement with multiple
adult women. In her initial police interview the officer noted Ms. Shaw’s focus on
Mr. Haywood-Watson’s extramarital affairs rather than the alleged abuse. Mr.
Haywood-Watson had no interaction with his children for three years prior to trial.
Mr. Haywood-Watson’s trial lasted six days. Ms. Shaw testified in addition to
all four children testifying as witness and victim. The prosecution presented
allegations of numerous combinations of victims and criminal violations within
Section 21.02(c) of the Texas Penal Code with no physical or forensic evidence,
though the indictment at trial was based upon one victim. Mr. Haywood-Watson
maintains his innocence and denies any abuse occurred at his hands, in his
presence, or with his knowledge.
SUMMARY OF THE ARGUMENT
The bedrock principles of our legal system originate from the maxims of proof
beyond a reasonable doubt and the right to trial by an impartial jury, which are
inexorably linked. This Court continues to secure these tenets in cases both past
and present. However, continuous series statues that incorporate multiple free­
standing criminal violations as a single violation without requiring jury unanimity
in regard to the multiple free-standing criminal violations undermines the
aforementioned bedrock principles that uphold our system of law. The Sixth and
6

Fourteenth Amendment requires juries to unanimously agree upon the free­
standing criminal violations that constitute the basis of a series because: a) this
Court, in Schad v. Arizona, Richardson v. United States and Apprendi v. New
Jersey, provides the framework adjudicating the true elements and jury agreement
necessary in continuous series statutes; b) this Court, in Ramos v. Louisiana, has
made clear that the constitutional guarantee of jury unanimity in federal criminal
trials extends to state criminal trials.
REASONS FOR GRANTING THE WRIT
I.

This Court Should Grant Certiorari to Consider Whether Section
21.02(d) of the Texas Penal Code Violates This Courts Precedent
Regarding Jury Unanimity.
Texas is one of many states where legislatures have enacted what are commonly

referred to as “continuous course of conduct” or “continuous series” statues. These
statues combine a series of acts or free-standing criminal violations to create a new
criminal violation. Continuous series statutes vary in their breadth and specificity
calling into question the constitutionality of not requiring jury unanimity within
these statutes. The Texas Legislature provides eight distinct free-standing criminal
violations in Section 21.02(c) of the Texas Penal Code that serve as the “acts”

7

qualifying for prosecution.1 Section 21.02(d) does not require juries to unanimously
agree on the two or more “acts” necessary to constitute the continuous series. These
“acts” within the statute are each codified as free-standing criminal violations that
require jury unanimity in the Texas Penal Code. The constitutionality of states
allowing jury disagreement concerning incorporated free-standing criminal
violations used to constitute a series in continuous series statutes has never been
directly addressed by this Court.
Texas Intermediate Courts have erroneously construed the opinions rendered
in Schad v. Arizona and Richardson v. United States to uphold the constitutionality
of not requiring juries to unanimously agree on the two or more free-standing
criminal violations necessary to constitute a continuous series. In addition, Texas
Courts point to Apodaca v. Oregon to further support not requiring jury unanimity
in state criminal trials. This Court has provided guidance as to what limits the
Constitution places on defining true elements verses mere means in Schad v.
Arizona and Apprendi v. New Jersey. This Court also addressed the requirement of
jury unanimity regarding the violations constituting a series in Richardson u.
United States.

1 Aggravated kidnapping (Tex. Pen. Code § 20.04(a)(4)); indecency with a child (Tex. Pen. Code §
21.11(a)(1)); sexual assault (Tex. Pen. Code § 22.011); aggravated sexual assault (Tex. Pen. Code §
22.021); burglary (Tex. Pen. Code § 30.02(l)-(4)); sexual performance by a child (Tex. Pen. Code §
43.25); trafficking of persons (Tex. Pen. Code § 20A.02(a)(7) or (8)); and compelling prostitution Tex.
Pen. Code § 43.05(a)(2). (See App. H)

8

First, the majority in Richardson agrees with the five-person plurality in
Schad recognizing that “the Constitution itself limits a State’s power to define
crimes in ways that would permit juries to convict while disagreeing about means,
at least where that definition risks serious unfairness and lacks support in history
or tradition.” Richardson u. United States, 526 U.S. 813 (1999) at 820 (citing Schad
at 632-633). Schad sets the limit of true elements that must be unanimously agreed
upon as “indicative of a distinct crime” (Alternative Elements at 187). Apprendi
rejects the notion that legislatures can redefine free-standing criminal violations as
non-elements by moving their placement within the criminal code. Apprendi v. New
Jersey, 530 U.S. 466 (2000) at 29-30. The majority in Apprendi rejected the State’s
contention that it did not create a “separate offense calling for a separate penalty”
(Id. at 495) instead agreeing with the New Jersey Supreme Court “that merely
because the state legislature placed its hate crime sentence ‘enhancer’ within the
sentencing provision of the criminal code does not mean that the finding...is not an
essential element of the offense.” Ibid. Richardson guides the level of jury
specificity necessary by ruling “the statute requires unanimity in respect to each
individual ‘violation’.” Richardson at 824. The majority in Richardson found no
historical support that free-standing criminal violations be treated as means rather
than independent elements and concluded that “unanimity in respect to each
individual violation is necessary.” Id. at 816.

9

Second, in Ramos v. Louisiana this Court rejects permitting juries to convict
while not being unanimous, where unanimity is required in state criminal trials.
Permitting juries to disagree about free-standing criminal violations is a grant of
power to the State that has no history or tradition and risks serious unfairness to
citizens. This Court recognizes that “an interpretation of‘violations’ as means are
not sufficiently powerful to overcome the considerations... of language, tradition,
and potential unfairness.” Richardson at 820.
Over the two decades in which these continuous series statues have emerged,
constitutional interpretation regarding the incorporation of the Bill of Rights to the
States and the original understanding of the guarantees contained within the Sixth
Amendment has coalesced into the majority opinion of Ramos v. Louisiana. The
Constitution clearly expresses jury unanimity are a foundational right extended to
federal as well as state criminal trials.
A. History Unequivocally States Unanimity is an Indispensable
Precept of Trial by Jury.
The laws of our country can be found rooted in principles as far back as the
English Magna Carta. “[I]t was this extraordinary document [the Magna Carta]—
agreed to by the King of England in 1215—that first spelled out the rights and
liberties of man. The ideals of the Magna Carta inspired America’s forefathers to
define and protect many of the rights expressed in our founding documents, which
we continue to cherish today.” Barack Obama, 04/30/15, Proclamation of Law Day.
10

Concepts such as proof beyond a reasonable doubt, a jury comprising of twelve men,
and the requirement of those twelve men to unanimously agree arose long ago,
becoming an inherent feature of our common-law jury. At the founding of our
country this guarantee of a right to jury trial and requirement of jury unanimity
was written into the Constitution. This Court has long espoused the common
understanding of these inalienable rights: “The requirement of a unanimous jury
verdict in criminal cases and proof beyond a reasonable doubt are so embedded in
our constitutional law and touch so directly on all citizens and are such barricades
of liberty...” (<Johnson v. Louisiana, 406 U.S. 356 (1972) at 393) and “In an
unbroken line of cases reaching back to the late 1800s, the Justices of this Court
have recognized, virtually without dissent, that unanimity is one of the
indispensable features of federal jury trial.” Id. at 369.
Sir William Blackstone expounded that the mere existence of a jury alone
does not provide a barrier between “the liberties of the people and prerogative of the
crown,” but in addition “that the truth of every accusation... should afterwards be
confirmed by the unanimous suffrage of twelve of his equals and neighbors.”
William Blackstone, Commentaries on the Laws of England (1769) at 343. In
acknowledgment of the enduring fink between jury unanimity and proof beyond a
reasonable doubt this Court, In re Winship, 397 U.S. 358 (1970), made sure to
express each components necessity in a criminal trial. To meet “the proof beyond a
reasonable doubt standard...the jury must first find that the government has met
11

its burden of proof beyond a reasonable doubt as to each fact necessary to constitute
the offense charged (the elements of the offense).” Alternative Elements at 199. The
Alaska Supreme Court, inspired by United States v. Gipson, pronounced “[i]f the
jury is not required to agree on what criminal conduct a defendant has committed,
then there can be no guarantee that the jury has agreed that the defendant
committed a crime beyond a reasonable doubt.” Khan v. State, 278 P.3d 893 (2012)
at 899. Furthermore, “The unanimity rule thus requires jurors to be in substantial
agreement as to just what the defendant did...Requiring the vote of twelve
jurors...does little to insure that his right to a unanimous verdict is protected unless
this prerequisite of jury consensus as to the defendant’s course of action is also
required.” United States v. Gipson 553 F.2d 452 (1977) at 458.
Continuous series statutes straddle these constitutional maxims enshrined in
our Sixth and Fourteenth Amendments, while Texas’ continuous sexual abuse
statue egregiously traverses them. The historical record, and more importantly the
Constitution, does not support a law such as this to continue to stand as currently
written. Statues written and enacted that dispense with commonly held standards
of unanimity lower the State’s burden while eroding the citizens Constitutional
guarantees. Justice Joseph Story poignantly said, “A trial by jury is generally
understood to mean...a trial by twelve men...who must unanimously concur in the
guilt of the accused... Any law, therefore, dispensing with any of these requisites,

12

may be declared unconstitutional.” Joseph Story, Commentaries on the Constitution
of the United States, 559 n.2 (1891).
B. Schad v. Arizona, Richardson v. United States and Apprendi v.
New Jersey Provide the Framework for Determining True
Elements and Jury Agreement Necessary in Continuous Series
Statues.
The Texas Court of Criminal Appeals has not issued an opinion on
constitutional challenges to Section 21.02 of the Texas Penal Code since its
inception fourteen years ago, notwithstanding numerous petitions seeking review.2
The question of the constitutionahty of continuous sexual abuse statutes recurs
frequently and has resulted in several opinions by Texas Appellate Courts as well
as opinions from challenges in other states with similar statutes.3 Texas courts

2 State v. Espinoza, No. 05-09-01260-CR (Tex. App. Jun. 30, 2010), PDR refused 09/10/20; Render
v. State, 316 S.W.3d 846 (2010), PDR refused 10/13/10; Reckart v. State, 323 S.W.3d 588 (2010),
PDR refused 02/09/11; Henshaw v. State, No. 05-10-00104-CR (Tex. App. Apr. 18, 2011), PDR
refused 09/14/11; Martin v. State, 335 S.W.3d 867 (Tex. App. Mar. 16, 2011), PDR refused 10/05/11;
Ramirez v. State, No. 05-10-00139-CR (Tex. App. Apr. 26, 2011), PDR refused 10/19/11; Lewis v.
State, No. 02-10-00004-CR (Tex. App. Jul. 14, 2011), PDR refused 11/16/11; Casey v. State, 349
S.W.3d 825 (Tex. App. Aug. 31, 2011), PDR refused 01/25/12; Hernandez v. State, No. 05-10-00493CR (Tex. App. Oct. 27, 2011), PDR refused 01/25/12; Bays v. State, No. 06-10-00114-CR (Tex. App.
Dec. 7, 2011), PDR refused 03/28/12; Henry v. State, No. PD-0097-13, PDR refused 03/27/13;
Kennedy v. State, No. 07-11-00042-CR, PDR refused 04/17/13; Smith v. State, No. 05-16-01318CR, PDR refused 11/07/18. Haywood-Watson v. State, No. 14-18-00547-CR, PDR denied August 19,
2020.
3Reckart v. State, No. 13- 09-00179-CR, 2010 Tex. App. LEXIS 7002, at *30-34 (Tex. App. Corpus
Christi Aug. 26, 2010, pet. filed.); Render v. State, No. 05-09-00528-CR, 2010 Tex. App. LEXIS
5820, at *18-27 (Tex. App.-Dallas July 23, 2010, pet. ref'd); State v. Espinoza, No. 05-09-01260CR, 2010 Tex. App. LEXIS 4952, at *14 (Tex. App.-Dallas June 30, 2010, pet. ref'd) (mem. op., not

13

have reasoned that the legislature has the power to define a free-standing criminal
violation as manner and means in a continuous series, consequently a jury need not
be unanimous regarding manner and means. Therefore, no constitutional violation
occurs if a free-standing criminal violation is merely manner and means. This
reasoning is circular and lacks scrutiny of the constitutional issues that arise with
blind adherence to the intent of the legislature. The Texas Court of Criminal
Appeals’ implicit agreement with the Intermediate Courts along with those Courts’
faulty exegeses of Schad and Richardson has allowed Section 21.02 of the Texas
Penal Code to stand despite being unconstitutional. Texas Intermediate Courts
argue that Section 21.02 of the Texas Penal Code is constitutional because: 1.
Legislative intent; 2. The “acts” constituting the series are manner and means; 3.
Texas’ continuous sexual abuse statute is narrower than the federal continuous
criminal enterprise statue; and 4. The Sixth Amendment guarantee of jury
unanimity has not been extended to state criminal trials.
1. Legislative Authority has Constitutional Limits

designated for publication); Jacobsen v. State, No. 03-09- 00479-CR, 2010 Tex. App. LEXIS 4394,
at *14 (Tex. App.—Austin June 8, 2010, no pet.) (mem. op., not designated for publication); Coker v.
State, No. 12-09-00331-CR (Tex. App. Dec. 8, 2010). People v. Cissna, 182 Cal. App. 4th 1105, 106
Cal. Rptr. 3d 54, 68-70 (Cal. Ct. App. 2010); State v. Sleeper, 150 N.H. 725, 846 A.2d 545, 550-51
(N.H. 2004); State v. Johnson, 2001 WI 52, 243 Wis. 2d 365, 627 N.W.2d 455, 460-64 (Wis. 2001);
but see State v. Rabago, 81 P.3d 1151, 1169 (Haw. 2003) (holding similar statute to be
unconstitutional).

14

The Texas Constitution provides the legislature with “considerable discretion
in defining crimes and the manner in which those crimes can be committed”
(Landrain v. State, 268 S.W.3d 532 (Tex. Crim. App. 2008) at 535-36) and this Court
“generally give[s] great deference to the States in defining the elements of crimes.”
Schad at 652. This legislative authority does, however, have limits under the Texas
Constitution (art. 1, §19) and the U.S. Constitution (Amendments VI and XIV).
When analyzing whether or not a statute comports with the constitutional
requirement of jury unanimity, legislative intent in statutory construction weighs
heavily. The legislative intent of Section 21.02 of the Texas Penal Code is clear.
“Under the plain language of Section 21.02, it is the commission of two or more acts
of sexual abuse over a specified period of time... that is the actus reus element of the
offense as to which the jurors must be unanimous in order to convict.” Jacobsen v.
State, 325 S.W.3d 733 (2010) at 5. This was in response to Judge Cochran’s
suggestion in her concurring opinion in Dixon v. State that the Texas Legislature
consider enacting “a new penal statute that focuses upon a continuing course of
conduct crime...” (Dixon v. State 201 S.W.3d 731 (2006) at 737), yet “assist[s] in
preserving our bedrock criminal procedure principles of double jeopardy, jury
unanimity, due-process notice, grand-jury indictments, and election law.” Ibid.
While petitioner acknowledges the difficulty in prosecuting child sexual abuse
cases, the legislature’s attempt to create a statute meeting Judge Cochran’s
prerequisites, and more importantly constitutional requirements, falls short. The
15

legislature created a statute that is too broad and amounts to a work around of
specificity requirements. The Texas Legislature is well within its authority to create
a continuing series using free-standing criminal violations as the acts that form the
basis of the series. The legislature violates the Constitution and exceeds its
authority by redefining historically long accepted criminal violations as mere
manner and means or non-elements in order to dispense with the unanimity
requirement inherent to each criminal violation. The Texas Twelfth Court of
Appeals was correct that “the constitutional question about this part of the statute
[Section 21.02(c)]...is whether it is permissible for the legislature to treat the
specific acts of sexual abuse as manner and means of committing a series of sexual
abuses.” Coker v. State, No. 12-09-00331-CR (Tex. App. Dec. 8, 2010) at 8. The
Texas Legislature has already defined the acts in Section 21.02(c) of the Texas
Penal Code as free-standing criminal violations that remain unchanged to this day.
“To allow the State to avoid the consequences of its legislative choices through
judicial interpretation would permit the State to escape federal constitutional
scrutiny...” Schad at 658.
2. In Apprendi v. New Jersey This Court Rejected the Concept
That Changing Placement of a Criminal Violation Defines Its
Character.
The State argues that “Section 21.02 of the Texas Penal Code is a statue that
creates a single element of a ‘series’ of sexual abuse. It does not make each
16

‘violation’ a separate element of the offense that needs to be agreed upon
unanimously...” Render v. State, No. 05-09-00528-CR (2010). Here, the State
crosses a constitutional boundary by asserting that each free-standing criminal
violation is not a separate element to be agreed upon unanimously. This Court
carefully states “[decisions about what facts are necessary to constitute a crime and
therefore must be proved individually, and what facts are mere means represent
value choices more appropriately made in the first instance by a legislature than by
a court.” Schad at 638. The State agrees that “we must look both to history and
wide practice as guides to fundamental values.” Jacobsen v. State, 325 S.W.3d 733
(2010) at 737 (citing Schad at 637). Using history, wide practice, and the
assumption of legislative competence it must be concluded that when the violations
of sexual abuse were initially created as free-standing criminal violations the Texas
Legislature, as well as virtually all other state legislatures, made the fundamental
value choice that these criminal violations were actus reus elements in and of
themselves rather than the manner and means by which an offense is committed.
The Texas Legislature initially reasoned that the violations incorporated into
Section 21.02(c) of the Texas Penal Code to form the basis of the series have
“material difference[s] requiring separate theories of crime to be treated as separate
offenses subject to separate jury findings” (Schad at 633) thus the violations “are
ipso facto independent elements defining independent crimes under state law, and
therefore subject to the axiomatic principle that the prosecution must prove
17

independently every element of the crime.” Id. at 636 (citing In re Winship, 397 U.S.
358 (1970) and Sandstrom v. Montana, 442 I.S. 510 (1979)) Furthermore, “the Court
also has made clear that having set forth elements of a crime, a State is not free to
remove the burden of proving one of those elements from the prosecution.” Id. at
657. To warrant less than jury unanimity with respect to each violation forming the
basis of the series lowers the long-held burden of proof required of the State, while
increasing the citizens exposure to deprivation of life and liberty; concepts
antithetical to the protection of citizens guaranteed in the Constitution. This
Courts’ critique of the federal continuous criminal enterprise statutory construction
holds in this case, “...unanimity...required only as to the existence of the
‘continuing series’ and not as to the individual violations, would have come close to
and testjed] constitutional limits,” Richardson at 820. Furthermore, Section
21.02(d)’s failure to require jury unanimity regarding the individual violations that
constitute the continuing series does go beyond constitutional limits to the extent of
being unconstitutional.
The State also argues that the “acts” are not to be considered free-standing
criminal violations because “Section 21.02 does not criminalize the underlying acts,
but rather, incorporates the other statutes merely to define the acts that make up
the continuous course...,” which redefines them as the manner and means of
committing a newly created offense. Henry u. State, No. 08-11-0221-CR (Tex. App.
Jan. 16, 2013) at 6. This Court roundly rejected “the possibility that a State could
18

circumvent the protections of Winship merely by ‘redefining] the elements that
constitute different crimes...’” (.Apprendi at 485), adding “constitutional limits exist
to the States authority to define away facts necessary to constitute a criminal
offense.” Id. at 486 (citing In re Winship at 85-88).
In Schad this Court suggested both history and current practice of other
states can give a “sense of appropriate specificity.” Schad at 637. In the present
context, thirty to forty years of Texas law demonstrates that the acts used in
Section 21.02(c) of the Texas Penal Code to form the basis of a continuing series are
free-standing violations of criminal law requiring jury unanimity, rather than mere
manner and means of committing a single offense. Moreover, all fifty states have
laws making the acts fisted in Section 21.02(c) free-standing violations of their
criminal laws. This Court strongly points out “[i]ndeed, the fact that New Jersey,
along with numerous other States, has also made precisely the same conduct the
subject of an independent substantive offense makes clear that the mere presence of
this ‘enhancement’ in a sentencing statute does not define its character.” Apprendi
at 496. Following this Court’s logic in Apprendi, the mere presence of the acts in a
series does not define their character. Simply because the legislature chooses to
redefine the acts as manner and means does not a priori mean the acts are not
essential elements. Justice Thomas, in his concurring opinion, succinctly states that
“if a fact is by law the basis for imposing or increasing punishment—for
establishing or increasing the prosecutions entitlement—it is an element.” Id. at
19

f

521. Viewed from this perspective it is evident why the specific acts used to form the
basis of the series in Section 21.02(c) of the Texas Penal Code are individual
elements requiring jury consensus, rather than mere means or brute facts.
3. The Breadth of Texas’ Continuous Sexual Abuse Statute is Why
It is Analogous to the Federal Continuous Criminal Enterprise
Statute.
The State contends that the continuous sexual abuse statute is different from
the federal continuous criminal enterprise statute “by being narrower in scope.”
Jacobsen at 8. Section 21.02(c) of the Texas Penal Code does contain less than the
ninety violations that can be found associated with the federal continuous criminal
enterprise statute, however, that by no means qualifies the Texas statute as
narrow. In fact, Texas has the broadest continuous sexual abuse statute of any
state, allowing for combinations of different victims with different violations
without requiring unanimity on what specific violation occurred with any specific
victim. Brian Bah, Jury Unanimity and the Problem with Specificity. Justice Scalia
expressed “[w]e would not permit, for example, an indictment charging that the
defendant assaulted either X on Tuesday or Y on Wednesday, despite the moral
equivalence of those two acts.” Schad at 651. In Section 21.02 of the Texas Penal
Code convictions of the nature Justice Scalia described are permitted and occur.
Additionally, the breadth of Section 21.02(b)(1) and (d) of the Texas Penal Code
compounds Justice Scalia’s example by allowing a general guilty verdict. In a case
20

where four children testify the statute allows, for example, either violation 1 with X
on Tuesday or violation 2 with Y on Wednesday or violation 3 with A on Monday or
violation 4 with B on Friday. This would not pass constitutional muster as an
indictment, much less grounds for a conviction.
The State concedes “the ‘acts of sexual abuse’...are found in only six penal
statutes, although these statues sometimes define more than one offense,” Jacobsen
at 8, which fundamentally increases the need for juror concurrence rather than
diminishes the need for concurrence as the State would suggest. Including penal
statutes that sometimes define more than one offense in a continuous series statute
exponentially complicates the charge of a jury to be triers of fact; not requiring
jurors to agree unanimously upon each penal code that constitutes the series
directly violates the constitutional duty of a jury in our legal system. The breadth of
Section 21.02 of the Texas Penal Code unacceptably increases the possibility for
juror confusion or different jurors concluding a defendant committed different
criminal violations by permitting jurors to avoid discussion of factual details of the
violations. Without requiring jury unanimity on the two or more acts that constitute
the series “jurors, unless required to focus upon specific factual detail, will fail to do
so, simply concluding from testimony, say of bad reputation, that where there is
smoke there must be fire.” Richardson at 819.
4. Sixth Amendment Guarantee of Jury Unanimity Has Been
Extended to State Criminal Trials Via Ramos v. Louisiana.
21

In this Court’s landmark decision, Ramos v. Louisiana, the Sixth Amendment
guarantee of a jury unanimity in criminal trials enshrined on the federal level was
extended to the states. Section 21.02(d) of the Texas Penal Code violates a
defendant’s constitutional right to a unanimous jury by allowing jury disagreement
concerning essential elements which can result in patchwork jury verdicts that
determine guilt. Patchwork verdicts regarding commonly held essential elements
were not the intention of the framer’s as they secured the right to trial by an
impartial jury. If the jury cannot unanimously agree as to the two or more acts that
constitute the series, such difficulty tends to cast doubt on the defendant’s guilt or
culpability within the statute. The defendant may be guilty of some enumerated
violation, but if the jury cannot unanimously agree then the defendant may not be
guilty of the continuous statute and should not be convicted.
Texas Penal Code 21.02 also has the material effect of increasing the
maximum penalty for the free-standing criminal violations used to form the basis of
the series. “The continuous sexual abuse statute brings together several different
offenses and permits a higher penalty when the state can show that the defendant
committed the acts over a period of time longer than thirty days.” Coker at 4-5. This
Court made clear that “under the Due Process Clause of the Fifth Amendment and
the notice and jury trial guarantees of the Sixth Amendment, any fact... that
increases the maximum penalty for a crime must be charged in an indictment,
submitted to a jury, and proven beyond a reasonable doubt.” Apprendi at 476 (citing
22

Jones v. United States, 526 U.S. 227 (1999) at 243, n.6.). Since this Court looks so
carefully at the degree to which a jury authorizes punishment, it logically follows
similar care is given about the extent to which a jury finds guilt. This condition
alone requires jurors to unanimously agree as to which two or more acts in the
series were committed by a defendant. For a unanimity guarantee to possess true
effectiveness the legislatures almost complete authority to define the degree of
unanimity required must have limits, lest it become a shell of a requirement. The
fear in allowing Section 21.02 of the Texas Penal Code to stand echoes that of the
framer’s fear “that the jury right could be lost not only by gross denial, but by
erosion.” Id. at 483.
CONCLUSION
For the foregoing reasons, the petition for writ of certiorari should be
granted.
Dated: January 11, 2021
Respectfully submitted,

_iMta__

Ricky Haywood-Watson
Petitioner
TDCJ No. 02206869
Barry S. Telford Unit
3899 State Hwy 98
New Boston, TX 75570
Main Phone: (903) 682-3171
23

